No. 19-1091
IN THE

Supreme Court of the United States
STEVE RAY EVANS,
Petitioner,
v.
SANDY CITY, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
CERTIFICATE OF SERVICE
I, Kevin P. Martin, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s
Order of April 15, 2020) that I have, this 23rd day of June 2020, served the Reply
Brief for Petitioner upon each party separately represented in this proceeding by
causing an electronic copy of the same to be delivered to counsel of record at the email address listed below:
Troy L. Booher
tbooher@zbappeals.com
Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.

In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

June 23, 2020

/s/ Kevin P. Martin
Kevin P. Martin
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
kmartin@goodwinlaw.com
(617) 570-1186
Counsel for Petitioner

2

